<html>
<title> - PREVENTING ABUSE OF THE MILITARY'S TUITION ASSISTANCE PROGRAM</title>
<body><pre>[Senate Hearing 112-143]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-143

     PREVENTING ABUSE OF THE MILITARY'S TUITION ASSISTANCE PROGRAM

=======================================================================


                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE
66-674 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
               Nicholas A. Rossi, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 SCOTT P. BROWN, Massachusetts
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
MARK BEGICH, Alaska                  ROB PORTMAN, Ohio

                    John Kilvington, Staff Director
                  Bill Wright, Minority Staff Director
                   Deirdre G. Armstrong, Chief Clerk











                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Brown................................................     6
    Senator Coburn...............................................     7
Prepared statements:
    Senator Carper...............................................    39
    Senator Brown................................................    57

                               WITNESSES
                        WEDNESDAY, MARCH 2, 2011

Hon. Tom Harkin, a United States Senator from the State of Iowa..     7
Robert Gordon, Deputy Assistant Secretary of Defense for Military 
  Community and Family Policy, U.S. Department of Defense........    13
George Scott, Director of Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........    14
Kathy Snead, President, Servicemembers Opportunity Colleges......    16

                     Alphabetical List of Witnesses

Gordon, Robert:
    Testimony....................................................    13
    Prepared statement...........................................    66
Harkin, Hon. Tom:
    Testimony....................................................     7
    Prepared statement...........................................    60
Scott, George:
    Testimony....................................................    14
    Prepared statement...........................................    74
Snead, Kathy:
    Testimony....................................................    16
    Prepared statement...........................................    86

                                APPENDIX

Questions and responses for the Record from:
    Mr. Gordon...................................................   101
Chart referenced by Senator Harkin...............................   118
Chart referenced by Senator Harkin...............................   119
Chart referenced by Senator Harkin...............................   120
Chart referenced by Senator Harkin...............................   121
Chart referenced by Senator Carper...............................   122
Chart referenced by Senator Carper...............................   123
Chart referenced by Senator Carper...............................   124

 
     PREVENTING ABUSE OF THE MILITARY'S TUITION ASSISTANCE PROGRAM

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:38 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper, Brown, and Coburn.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Well, good afternoon, everybody. It is 
great to be here with our Republican Senator for, I think it is 
our first hearing together, Scott Brown, but to our colleague 
from Iowa, thank you for not only for being here, but I 
understand your schedule is such that you can stay for a few 
minutes while we do our opening statements, but we are 
delighted that you are here and thank you for your leadership 
on this. We welcome our other guests, our other witnesses, and 
we will be welcoming you up to this table in just a short 
little while.
    But the hearing will come to order. As we gather here for 
this afternoon's hearing, our Nation's debt stands at $14 
trillion, actually just over $14 trillion. Ten years ago on 
this date, it stood at less than half that amount, a little 
over $5.5 trillion. If we remain on the current course, it may 
double again before this decade is over.
    The debt of our Federal Government held by the public as a 
percentage of Gross Domestic Product (GDP) has risen to almost 
65 percent. That is up from about 33 percent a decade ago. The 
last time it was this high was at the end of World War II. In 
fact, the only time it has ever been as high, I believe, was at 
the end of World War II. That level of debt was not sustainable 
then and it is not sustainable today. We need only ask our 
friends in Greece and Ireland about that.
    The Deficit Commission led last year by Erskine Bowles and 
former Senator Alan Simpson has provided us with a road map out 
of this morass, reducing the cumulative deficits of our Federal 
Government over the next decade by some $4 trillion and 
skewering a number of our sacred cows, including some of my 
sacred cows, along the way.
    The purpose of this hearing, though, is not to debate the 
merits of the Commission's work. The purpose of our hearing 
today is to look at yet another area of government spending and 
ask this question: Is it possible to achieve better results for 
less money, and if not, is it possible to achieve better 
results without spending a whole lot more money, or maybe even 
spending the same amount of money that we are spending today?
    A lot of Americans believe that a culture of spendthrift 
prevails in Washington, D.C., and has for many years. They are 
not entirely wrong. We need to establish a different kind of 
culture. We need to establish a culture of thrift. We need to 
look in every nook and cranny of Federal spending--domestic, 
defense, entitlements, along with tax expenditures--and find 
places where we can do more with less.
    The Subcommittee has spent the last half-dozen years trying 
to do just that. In those days, Senator Tom Coburn sat right 
here where Senator Brown is sitting, or he sat here in this 
seat. We took turns chairing this particular Subcommittee. But 
we have worked over those years closely with the Office of 
Management and Budget (OMB), with the Government Accountability 
Office (GAO), with Inspectors General (IG), with nonprofits 
like Citizens Against Government Waste and the Committee for a 
Responsible Federal Budget, to reduce wasteful or inefficient 
spending.
    In doing so, we sought to reduce improper payments. We 
sought to combat fraud in Medicare and Medicaid, to unload 
surplus Federal properties, thousands of pieces of unused, 
unneeded Federal property. We sought to decrease cost overruns 
in major weapons systems procurement and in the procurement of 
information technology (IT) systems by Federal agencies that 
were over-budget and, frankly, were not able to do what they 
were supposed to do in the first place. We sought to begin to 
close a $300 billion tax gap. We sought to introduce 
efficiencies in the way that the mail is delivered and the way 
that the Census is taken. And we have sought, and I think may 
prevail on this year, to provide the President with a 
constitutionally sound statutory line item veto power. And the 
list goes on. That gives you a flavor of the kinds of things we 
have worked on. It is a good list.
    Most of us in this room today, however, understand that we 
cannot simply cut our way out of the debt. We cannot tax our 
way out of the debt. And we cannot save our way out of all this 
debt. We need to grow our way out of this debt, too. That means 
we need to invest in ways that will grow our economy and make 
our Nation more competitive with the rest of the world by 
building a better educated, more productive workforce, by 
reversing the deterioration of our Nation's infrastructure, 
broadly defined, and by funding the kind of research and 
development that will enable us to out-innovate the rest of the 
world again.
    If we are really serious about out-innovating the rest of 
the world, we need to start by out-educating them, and frankly, 
we have not done that for some time. This means a major focus 
on early childhood education so that when kids walk into the 
first grade at the age of six, they are ready to compete. They 
are ready to be successful. I think I can get an ``amen'' from 
Senator Harkin on that one.
    It means that we must continue to transform our K to 12 
public schools so that fewer students drop out and those who do 
graduate are able to read, write, think, do math, use 
technology, go on to become productive members of our society. 
And it also means, for purposes of our hearing today, it means 
ensuring that the post-secondary education that Americans 
receive truly will make them more productive workers and more 
productive citizens.
    For years with our service academies, with programs like 
the Reserve Officer Training Corps (ROTC) and the G.I. Bill, we 
sought to raise the skill levels of those who serve in our 
armed forces as well as the skill levels of those who later 
return to civilian life. Senator Harkin and I both served a 
number of years ago in the Navy. Scott Brown still serves, I 
believe, in the military in a role in Massachusetts National 
Guard, a leadership role. So this is personal for us, given our 
background. This is personal for us.
    Traditional education programs like ROTC scholarships and 
the G.I. Bill are still in place, and now the new G.I. Bill is 
much improved from when we were there. However, we also offer 
our active duty military personnel another lesser-known 
education benefit. It is called the Tuition Assistance Program 
(TA), and that is going to be the focus of our hearing today.
    Under this program, American taxpayers will pay about $250 
per credit hour toward the cost of a service member's tuition 
for a maximum of about $4,500 per year. In fiscal year (FY) 
2000, the Department of Defense (DOD) spent about $157 million 
on tuition payments under this program. By 2009, that number 
had risen to over $500 million, a three-fold increase in just 9 
years.
    This program does require service members to continue their 
active duty service while they complete their courses. As you 
might expect, this requirement somewhat limits the choices 
available to active duty personnel, like the ones at Dover Air 
Force Base, where you never know when you are going to head out 
on a detachment or deployment in Afghanistan, Iraq, or some 
other place around the world.
    But active duty personnel members basically have three 
options when it comes to post-secondary education. One of them 
is that they can take courses on base with schools that have 
permission to offer courses there. We have some of that at 
Dover. You probably have that in your States, as well. Second, 
they can attend courses at nearby college campuses. Some of our 
folks at Dover Air Force Base do that as well. Last, our 
military personnel can enroll in distance learning courses.
    Each of these three options includes providers who do an 
excellent job, of educating their students. Each of these three 
options also include providers who, frankly, do not. These 
three options include private and nonprofit schools, public 
colleges and universities, and for-profit schools. In today's 
hearing, we will focus primarily on the latter, and that does 
not mean we are taking our eyes off of the former.
    For-profit schools that operate almost entirely online have 
become the frequent choice of many military personnel who have 
opted for the distance learning option. At the Dover Air Force 
Base in Delaware, the most popular school is a for-profit, and 
this for-profit university has enrolled, I am told, twice as 
many Dover airmen and women as the two local colleges that 
offer courses on base. The fact probably should come as no 
surprise, since the distance learning services are in high 
demand. For-profits have sought to fill our military's needs 
for post-secondary education, in part because of the 
accessibility of their classes and the variety of courses that 
are offered.
    While some for-profit schools return real value for 
taxpayers' money--we have heard and talked to a number of 
them--serious questions have also arisen with respect to the 
recruiting practice of some for-profits and to the quality of 
the education that they provide.
    Over the past year or two, Senator Harkin's Health, 
Education, Labor, and Pensions Committee (HELP) has sought to 
put a spotlight on both of these areas. In cooperation with the 
Government Accountability Office, the Committee uncovered 
unethical recruitment practices by a number--not all, but by a 
number of for-profits that they investigated. In addition, the 
Committee found a disturbing trend. Many for-profit 
institutions depend heavily on Federal student aid dollars, but 
fail to consistently provide a quality education. I said many, 
but by no means all. Some of them do an excellent job, and we 
want to make that perfectly clear.
    In a number of cases, 90 percent or more of these for-
profit schools' revenues come from taxpayer-funded student aid 
programs, over 90 percent. This would not be objectionable if 
the overwhelming majority of these schools were producing 
students with strong skill sets that led to careers with 
livable wages and good benefits. However, at too many of these 
schools, that simply is not the case and far too many students 
are provided with minimal instruction and support. They drop 
out. Others may actually graduate, but they subsequently have 
difficulty finding the kinds of jobs that would enable them to 
pay off their sizeable student loans and to support their 
families.
    Recent data shows that some 25 percent of students at for-
profit colleges have defaulted on their loans within 3 years 
while only about 10 percent of students at not-for-profit 
institutions have defaulted.
    The Department of Education (DOE) is addressing the issues 
of default rates and accountability in for-profit industry 
through regulation. Our post-secondary education system will be 
better off, I believe, as a result of these efforts. While some 
folks contend that these efforts by the Department would cut 
off higher education access to many of our most vulnerable 
citizens, I do not agree with that thinking. The Department of 
Education's regulations would only cut off access to programs 
at schools that are clearly not offering a good product, an 
education that costs too much, offers little instruction and 
training, and often saddles students with mountains of debt 
that is difficult, if not impossible, for them to repay.
    Currently--and as I have gone through the preparation for 
this hearing, I have talked with a number of folks from schools 
themselves and from the Department of Defense, from Education, 
from the Committee, and it occurs to me that, currently, the 
incentives at many for-profit colleges are misaligned, somehow, 
the incentives that we are providing for them to perform and to 
provide education, in this case, for our military personnel. 
The institutions are rewarded for enrolling more students, but 
they have little, if any, incentive to make sure that their 
graduates are prepared for the workforce and are able to enter 
careers that enable them to manageably repay their student loan 
debt and begin to live the American dream.
    Having said that, let me again say as clearly as I can, 
this is not an issue solely for for-profit institutions. There 
are many community colleges experiencing similar issues with 
extremely low degree completion rate and very high default 
rates. And to be fair, there are also a number of for-profit 
institutions that offer a quality education and have a history 
of success with placing students in well-paying jobs.
    We have reached the time, though, when we need to be doing 
all that we can to ensure that we get the best bang for our 
bucks across all aspects of our Government. Student aid 
spending needs to be at or near the top of our list, not just 
because of the amount we spend on these programs--and it is a 
lot--but also because the future and the dreams of our students 
depend on spending that money wisely.
    Nowhere is that need more evident than with our troops 
participating in the Tuition Assistance Program. Over the past 
year, several reports have described troubling stories of how 
some schools come close to abusing our veterans and active duty 
military personnel. The accounts of that abuse range from 
deceptive recruitment practices by school recruiters to 
schools' hollow promises about the transferability of credits 
to students becoming saddled with unnecessary debt.
    In one case, our staff uncovered a service member who used 
his tuition assistance benefit to earn his Bachelor's degree 
from a for-profit college that promises his credits would fully 
transfer after graduation. However, when he went on to apply 
for a Master's program at another school, he found that none of 
his credits would be accepted there, rendering his Bachelor's 
degree far less valuable than he thought it would be.
    In another case, one soldier enrolled in a for-profit 
institution based on the school's promise that they accepted 
tuition assistance payments, but because the Department of 
Defense only pays the benefit after successful completion of a 
course, the soldier discovered that after taking a class that 
the Army would not give payments to his school, instead 
sticking him with the bill.
    As some of you know, I have four core principles that I try 
to incorporate into everything that I do and they are, number 
one, treat other people the way I want to be treated; number 
two, to try to do the right thing, not the easy thing, but try 
to do the right thing, really to focus on excellence in 
everything that we do, and to really never give up. If I think 
I am right, know I am right, I just do not give up. I think a 
lot of us are that way.
    The idea that some schools take advantage of our service 
members really offends each of those four core principles that 
I claim as my own. We demand so much of our men and women in 
uniform and of their families. We must also demand more of our 
schools and get better results from our government.
    We are here today because I think it is a moral imperative 
to ensure that the Department of Defense is doing everything 
that it can to prevent these kinds of abuses. We have asked the 
Government Accountability Office to investigate and assess the 
Department of Defense's ability to identify and stop these 
abuses. GAO will share its findings with us today.
    And finally, let me just say, we also have with us today 
representatives from the Department of Defense and the 
Servicemembers Opportunity Colleges, a consortium of schools 
empowered to police these schools that are serving our troops. 
We welcome you. These witnesses will help us better understand 
the current safeguards against abuse of the Tuition Assistance 
Program, how well they work and how we can improve them.
    In turning this over to Senator Brown, he has spent over 20 
years in our armed forces. How many years is it, close to 30, 
is it not?
    Senator Brown. Thirty-one years.
    Senator Carper. Yes, 31 years. I spent 4 years of 
Midshipman, 5 years active duty during the Vietnam War, another 
18 years as a Naval flight officer (NFO), ready reservist in 
the military, retired as a Navy Captain, 8 years as the 
Commander in Chief of the Delaware National Guard. This is 
personal for him. This is personal for me and the men and women 
with whom I served, sometimes in war, sometimes in peace. They 
deserve the best that we can give them and I just want to make 
sure that as we go through this, that we are giving them our 
best effort and we are giving them every chance that they have 
to be successful when they turn to getting the skills they need 
to be employable and to go on with their lives. Thank you.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Mr. Chairman, thank you very much for that 
presentation. First of all, I am honored to be on this 
Subcommittee. I think the last time people saw us together, we 
were sitting together at the State of the Union in the new 
arrangement that we have, so that was enjoyable.
    I am going to submit my comments for the record. You said a 
lot of what I felt is important. The bottom line is, for 
somebody who is still serving and has really participated with 
the educational process in Massachusetts for Massachusetts 
Guard and Reservists, I understand what the needs are and look 
forward to working with you to get to the bottom of it, maybe 
ways to improve and streamline and consolidate.
    I know that Senator Harkin is on a tight schedule and I do 
not want to take any time from anybody else, so I will submit 
my comments for the record and just say I am looking forward to 
working with you and honored to be on the Subcommittee. Thank 
you.
    Senator Carper. Thank you. We are delighted that you are 
here. You fill some big shoes, this guy's shoes over here. It 
is how I got a job sitting in this seat. I said this before you 
arrived, Tom, but sitting here and sitting there, and we are 
pleased to be able to work with you on so many issues, 
including this one.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Thank you. I will just take a few short 
minutes.
    One is a letter I received yesterday on the, I will say it 
more gently than what I think, some very significant and 
inappropriate behavior at the Department of Education in 
tipping hedge funds on short selling of private education 
funds, which this Subcommittee definitely needs to take a look 
at.
    The second point I will make is the significant problems 
with the Forensic Issue at GAO and the report they issued and 
the modifications they have issued since. As we all know, they 
are redoing their Forensic Unit because of the errors 
associated with a report on for-profit colleges which was, to a 
great extent, in many areas, highly inaccurate. It was almost 
like we had something we wanted to show, so let us make the 
figures put to that.
    Nevertheless, there are real problems. I am not concerned 
about the increase in the utilization, because with the new 
G.I. Bill and the fact that the 90/10 rule does not apply for 
for-profit colleges, you would expect them to go after many 
more veterans because that is the way they can balance out 
their numbers with the Department of Education.
    I apologize I will not be able to stay for the entire 
hearing. We have a judiciary hearing ongoing. But the issue in 
terms of the lack of proper utilization of facts in the 
Department of Education in advantaging investors in one segment 
to make significant dollars over something the government is 
thinking about doing is highly unethical, and if proven to be 
the case, some people ought to be going to jail in the 
Department of Education. This is not a light statement. I 
recognize that. But it is a serious statement, and I promise 
you, if we do not get on it in this Subcommittee, the Permanent 
Subcommittee on Investigations will, in fact, do that.
    Thank you, Mr. Chairman.
    Senator Carper. Thanks. I guess, reiterating, the purpose 
here is not to demonize for-profit colleges and universities. 
The purpose is to try to make sure that the men and women that 
are serving our country are getting the best deal that they 
can, a fair deal, and that the taxpayers are getting a fair 
deal, as well.
    With that having been said, let me recognize Senator 
Harkin. I have a long introduction, but I will not use that. 
Let me just say, you and your staff have been terrific on these 
issues and we applaud you for trying to do what you believe is 
right, what I think is right, and you are recognized for as 
long as you wish.

 TESTIMONY OF HON. TOM HARKIN,\1\ A UNITED STATES SENATOR FROM 
                       THE STATE OF IOWA

    Senator Harkin. I appreciate it very much. Thank you very 
much, Mr. Chairman, for your leadership on this and for having 
this hearing, and Senator Brown, Senator Coburn. This is an 
issue that all of us have to pay more attention to.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Harkin appears in the 
appendix on page 60.
---------------------------------------------------------------------------
    I would just start off by saying that we have decided as a 
country and as a Congress that it is important for the Federal 
Government to be involved in higher education. We have been for 
a long time--the G.I. Bill, Pell Grants, student loans. I think 
it is equally important that we make sure the taxpayers get a 
good value for their dollar, and I think it is equally 
important that students get a good education and that they do 
not take on more debt than they can pay back. That is just a 
general overview.
    Concerning the for-profit schools, what got us into this 
about a year ago as I took over the Chairmanship of the 
Committee were more and more reports were coming out about the 
tremendous growth in this segment of education over the last 
few years, 225 percent growth in just a few years, just a 
burgeoning of this, and the more and more money that we saw 
going from Pell Grants and others into the for-profits compared 
to how many students were there. They were getting a 
disproportionate share of the money.
    For example, 10 percent of the higher education students 
are in for-profit schools, but they are getting 23 percent of 
the Pell money and 24 percent of student loans. So 24 percent 
of the student loans, 23 percent of the Pell Grants, but they 
only have 10 percent of the students.
    So we saw this burgeoning, this growth, and so we began to 
ask questions, and we began to ask questions about the students 
and who were these students and how were they doing and what 
was the graduation rate and we could find out nothing. There 
were no answers out there. No one was keeping track of 
anything. And so we started an investigation of this, of the 
for-profits, trying to find out if we could get some answers 
from this.
    And so we started this investigation that has been going on 
for about a year. We have asked for documentation from a number 
of these schools. I think about 20 of these schools we have 
looked at and asked for documentation. Some of it has been 
forthcoming, and as we looked at it and delved into it, we got 
a clearer picture of what was happening, at least in this 
segment. We could not go into all of them, but we took 20 
across the spectrum.
    And thus far, the findings of our investigation are that, 
number one, as a sector, for-profit higher education has 
experienced disproportionate growth, more than doubling 
enrollment over the last decade.
    Two, that growth has been fueled by Federal subsidies. The 
15 publicly-traded for-profit colleges receive almost 90 
percent, and in some cases more than 90 percent, because as 
Senator Coburn indicated, military money is not counted on the 
90 percent side, it is counted on the other side. So sometimes 
they can go over the statutory limit of 90 percent. So they are 
getting about 90 percent, overall, of the revenue from taxpayer 
dollars. I have often wondered, how can you be for profit when 
you are getting 90 percent of your money from the taxpayers.
    Three, as a result, many of these companies have been 
extremely successful, sometimes with profits exceeding 30 
percent per year--30 percent of gross revenue profits in these 
schools.
    Next, in what appears to be a systemic failure, however, 
schools are extremely profitable even when the students are 
failing. Nearly every for-profit student borrows a Federal loan 
to attend college. Twenty-five percent are defaulting within 3 
years of leaving the school, compared to 11 percent at public 
institutions and 8 percent at nonprofit colleges.
    Last, these default rates should not come as a surprise 
when the data provided to the Committee shows that more than 54 
percent of students enrolling in for-profit schools, the ones 
that we looked at, dropped out within a year. Fifty-four 
percent dropped out within 1 year, after having taken on a 
substantial debt load. So they are getting huge debts, but they 
have no diploma.
    So the question, I think, before us is not whether for-
profit colleges should exist, but how to make sure they are 
doing their utmost to serve students and to give taxpayers good 
value for their dollar.
    Now, for-profit colleges, as they exist, must spend a large 
percent of their Federal dollars on aggressive marketing 
campaigns and sales staff in order to grow, sometimes as much 
as 60 percent. The GAO, which visited 15 campuses of 12 
companies, found misleading, deceptive, overly aggressive, or 
fraudulent practices at every one of those campuses. 
Investigators posing as prospective students were lied to about 
the costs of the program, about what they could expect to earn, 
about how many students graduated, about whether the credits 
would transfer, and about whether the program was accredited.
    In addition, my Committee has reviewed recruiting and 
training manuals from several different campuses and they all 
have one thing in common. It is called manipulation. They 
encourage their sales staff to identify the emotional 
weaknesses of prospective students and to exploit what they 
call the students', quote, ``pain'' in order to motivate them 
to enroll. These high-pressure sales tactics are designed to 
maximize enrollments and profits, not to ensure a good match 
between a student's educational needs and the school. And in my 
testimony, I have provided some of these documents to the 
Committee.
    Now, this brings us to the military. Unfortunately, our 
military bases are by no means safe havens from these types of 
aggressive and misleading recruitment practices. According to a 
Bloomberg article on for-profit colleges and service members, 
some of the schools are recruiting on base without permission, 
circumventing the education coordinator on the base. Again, 
this is happening in the military, and one of the reasons they 
are going after the military is because they do not have to 
count that on the 90 percent side.
    Now again, despite the disturbing record of dropouts and 
defaults, Congress has acted to increase educational benefits 
available to active duty troops and families and to veterans of 
Iraq and Afghanistan, the Webb bill. In December, I released a 
report examining these two programs and found that revenue from 
DOD educational programs at 18 for-profit education companies 
increased from $40 million in 2006 to $175 million by 2010, a 
startling 337 percent increase.
    I gave you some charts. I do not have them on a big board, 
but if I could refer to Chart 1,\1\ the blue line and the red 
line, the red line is the total company revenue and how much it 
has gone up since 2006, and it has incrementally gone up. But 
you see the huge increase in the amount of money coming from 
the military. That is Department of Veterans Affairs (VA) and 
DOD revenues.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Harkin appears in the appendix 
on page 118.
---------------------------------------------------------------------------
    Chart 2 is a similar one.\2\ The green line shows the total 
educational benefit programs, VA and DOD, going up. But what is 
pulling the line up is the revenue that is coming into those 
schools, that blue line is going up. So you can see that they 
are aggressively going after the military.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Harkin appears in the appendix 
on page 119.
---------------------------------------------------------------------------
    Chart 3, I think, is also instructive.\3\ It is the 
Department of Veterans Affairs educational benefits received by 
18 for-profit schools. You can see in 2006, it was $26 million. 
In 2010, it was $285 million, just in 4 years.
---------------------------------------------------------------------------
    \3\ The chart referenced by Senator Harkin appears in the appendix 
on page 120.
---------------------------------------------------------------------------
    The last chart is the DOD educational benefits.\4\ The 
previous chart was VA. This one is DOD at these 18 schools. As 
you can see, it has gone from $40 million to $175 million just 
last year. So this tremendous, tremendous increase in the 
amount of money going from the military.
---------------------------------------------------------------------------
    \4\ The chart referenced by Senator Harkin appears in the appendix 
on page 121.
---------------------------------------------------------------------------
    So in sum, what I am saying is that what I have heard and 
what I have learned from this investigation makes me deeply 
concerned that there is inadequate oversight of our nearly $30 
billion in Federal aid to for-profit schools. At the beginning 
of this investigation, I found an alarming lack of information. 
When we first went after the schools a year ago on 
investigation, we had no information, so we had to do this 
investigation. So I went to the military and I asked them for 
information. Nothing. They do not track students. They have no 
idea what is happening to this money. They have no idea what is 
happening to graduation rates. The figures I have shown you 
here, Mr. Chairman, are just for 18 schools that we 
investigated. You cannot get it for the whole military. I 
cannot get it from anyone in the military.
    So I would just sum up by saying this. We have to 
remember--you mentioned, Mr. Chairman--I am like you. I went 
through ROTC, spent my time in the military, used the G.I. Bill 
to further my education, and it is a great benefit. It is a 
great benefit. But we have to remember one thing. These 
benefits are one time, finite, one time. You get them one time, 
and if they are wasted, if they are thrown away and you do not 
get a good education, you do not ever get them again.
    And again, when I asked questions about the military, I got 
the same problem as I got a year ago when I asked just about 
the general for-profit schools, no answers. No answers.
    So, Mr. Chairman, I would just say that there is something 
wrong when students are failing, they are dropping out in their 
first year, they are taking on huge debts, and these schools 
are making profits, big time profits, up to 30 percent per year 
profits on them. And now, what has happened, as bad as it has 
been in the past, it is now seeping into the military, and more 
and more of our taxpayers' dollars going out through DOD and to 
VA into the for-profit schools.
    And the DOD is not tracking this, Mr. Chairman. They are 
not doing anything that can tell you what is happening to these 
students. I can tell you because we did an investigation of 18 
schools. But I cannot tell you if this is representative. If 
this is representative of the entire military, we have a real 
problem out there, and I think it behooves us as, as you said, 
taking care of the taxpayers' dollar, to find out where that 
money is going, how it is being used, and also, I think, as 
guardians of our troops, those who have risked their lives for 
us and to defend our country, are they being aggressively 
recruited? Are they being taken advantage of? Are they getting 
the money to go to these schools, dropping out within a year, 
and not getting a diploma or a good education of the kind that 
we got when we used our G.I. Bill?
    So, Mr. Chairman, this warrants looking into. I 
congratulate you for your endeavors in this area and I look 
forward to working with you to, again, get the answers we need.
    Senator Carper. Thank you very, very much for that, not 
only for the statement, but for the yeoman's labor that you and 
your colleagues on the Committee and your staff have done.
    I have a number of questions I could ask you, but I am not 
going to do that. I will just ask a rhetorical question and we 
will pursue this with our other witnesses and maybe you and I 
can talk about this with Senator Coburn and with Senator Brown 
later.
    But when we focus on health care reform, we focus on one of 
the issues that is one of the drivers for health care is the 
cost of defensive medicine. We almost reward the doctors, 
nurses, hospitals for quantity rather than for quality. 
Sometimes, I think maybe, we have our incentives misaligned, 
and rather than incentivizing not just churning more people 
through the door, somehow, we have to figure out how to 
incentivize making sure at the end of the day that the folks 
who come through the door actually leave with a degree and with 
an education, with completion of a program that will enable 
them to move on to live more productive lives. Somehow, we have 
to figure out how to change those incentives, and my hope is 
that with your help, the help of your Committee and the folks 
who are before us today, and people within the industry itself, 
especially the for-profit community that are doing a great job, 
we can learn from them.
    Is there anything you want to add to this, Scott?
    Senator Brown. No, thank you.
    Senator Carper. All right, good. All right. Thank you so 
much. Great to see you.
    Senator Harkin. Thank you.
    Senator Carper. If our second panel would come up and join 
us, that would be great. [Pause.]
    Let me just go ahead and briefly introduce our witnesses, 
starting with Robert Gordon. Nice to see you again. You are 
going to actually be our lead-off hitter, now that spring 
training is underway. But Mr. Gordon is the Deputy Assistant 
Secretary of Defense for Military Community and Family Policy. 
In this position, Mr. Gordon is responsible for overseeing the 
various aspects of support services for military members and 
for their families. He is here today because one of these 
services is the Volunteer Education Program for Military 
Personnel, which includes the Tuition Assistance Program.
    In addition to serving as the Deputy Assistant Secretary of 
Defense, Mr. Gordon is also a retired Army Colonel, so good for 
you. Thanks for your service. During his 26-year military 
career, Mr. Gordon held numerous assignments, including being 
selected to be aide de camp to then Brigadier General Colin 
Powell, one of my heroes, from 1981 to 1982.
    Colonel Gordon, we thank you for being here and, again, for 
your service.
    Next, the real George Scott, is here to speak with us 
today. Mr. Scott is the Government Accountability Office's 
Director for Education, Workforce, and Income Security. He is 
responsible for leading the Government Accountability Office's 
work that is related to higher education issues, including 
oversight of the Department of Education's student financial 
aid programs.
    Last spring, my office asked the Government Accountability 
Office to investigate the adequacy of the Department of 
Defense's oversight of the Tuition Assistance Program. Mr. 
Scott is here today to testify on the findings of this report 
and the work that they have done.
    Mr. Scott, we thank you for the strong work of the 
Government Accountability Office and specifically for the work 
of your team. I talked with Senator Brown recently and saw he 
was joining this Subcommittee and I said we are just one little 
Subcommittee, but in terms of what we can do by working with 
OMB, GAO, and the Inspectors General and a number of nonprofits 
that are really committed to spending money wisely, we are able 
to get a whole lot done, but we really are grateful to the work 
that GAO does----
    Mr. Scott. Thank you.
    Senator Carper [continuing]. As our partner in this.
    Last but not least, we have Dr. Kathy Snead. Dr. Snead is 
the President of the Servicemembers Opportunity Colleges (SOC), 
as I am sure it will be referred to here today. The 
Servicemembers Opportunity Colleges is a membership consortium 
that contracts with the Department of Defense to serve as a 
connection between our military personnel and the schools that 
serve them. I was interested to learn this week from you and 
our testimony and all that this consortium consists of almost 
2,000 schools and was created to provide educational 
opportunities to service members who, because they frequently 
move, as Scott and I know, Tom Harkin knows, frequently move 
from place to place, have trouble sometimes completing their 
college degrees.
    Prior to becoming President in 2004, Dr. Snead served in a 
number of positions within the Servicemembers Opportunity 
Colleges, beginning in 1995, and we thank you very much for 
joining us today.
    I am going to ask to have Mr. Gordon lead us off. Again, 
your entire testimonies will be made part of the record and we 
will invite you to summarize as you see fit. Thanks so much. We 
have 5 minutes on the clock. If you run a little bit over that, 
that is OK. If you run a lot over that, that is probably not 
OK. We will rein you back in. Thanks very much.
    Please proceed, Mr. Gordon.

 TESTIMONY OF ROBERT GORDON,\1\ DEPUTY ASSISTANT SECRETARY OF 
    DEFENSE FOR MILITARY COMMUNITY AND FAMILY POLICY, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Gordon. Thank you, Chairman Carper, Senator Brown. The 
Secretary of Defense and the men and women of the Armed Forces 
as well as our families thank you for your support and also 
thank you both for your service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gordon appears in the appendix on 
page 66.
---------------------------------------------------------------------------
    My role today is to focus on what the Defense Department is 
doing to provide quality lifelong education and learning 
opportunities through our off-duty voluntary education programs 
and how we effectively manage those programs.
    Each year, a third of our service members enroll in post-
secondary educational courses leading to Associates, 
Bachelor's, and advanced degrees. This past year alone, there 
were more than 857,000 course enrollments and 45,290 service 
members earned degrees and certifications. In the spring of 
2009 and 2010, we have held graduation ceremonies in Iraq and 
Afghanistan for 432 service members.
    Service members enrolled in voluntary education programs 
are non-traditional students, as we know. They attend school 
part-time during off duty, taking one or two classes a term. 
When the military mission, deployments, transfers, and family 
obligations impinge upon their ability to continue their 
education, it can result in an interruption of studies and 
breaks of months or even years between taking courses and 
completing degrees.
    The military is keeping pace with the civilian millennial 
generation's expectations to access information through 
technology. To facilitate education in today's high operations 
tempo environment, colleges and universities deliver classroom 
instruction via the Internet and on military installations 
around the world. There are no geographical confines. Courses 
are offered on board ships, submarines, and at deployed 
locations.
    To help us ensure our service members are receiving a 
quality education, all for-profit, non-for-profit, and public 
post-secondary institutions participating in Tuition Assistance 
Programs must be accredited by an accredited body recognized by 
the U.S. Department of Education. Also, colleges and 
universities on our installations adhere to additional 
criteria.
    To support these efforts, the Defense Department previously 
contracted with the American Council on Education (ACE) to 
conduct the Military Installation Voluntary Education Review 
(MIVER), which provided a third-party independent review of our 
on-installation programs. Currently, we are pursuing another 
contract, to be awarded by October 1 of this year, which will 
have an enhanced quality criteria and include all modes of 
delivery and all institutions, on and off military 
installations, participating in the Tuition Assistance Program. 
With the new review, we will track the third-party 
recommendations and monitor all corrective actions to ensure 
there is continuous quality improvement.
    To ensure this occurs, we are implementing a new policy 
requiring every institution participating in the Tuition 
Assistance Program to have a Memorandum of Understanding (MOU) 
with DOD which includes an agreement to participate in the new 
review process. The policy is effective next year, January 1, 
2012.
    As you are aware, our Tuition Assistance Program recently 
underwent a very detailed examination by the Government 
Accountability Office. I am pleased to say that I believe their 
report on our management of this large and complex program was 
favorable. We will find out in a minute. The GAO made five 
administrative recommendations. We concurred with all of them 
and we are implementing them now.
    To help us better leverage Department of Education's 
knowledge and expertise in the future, we are developing a 
partnership sharing agreement to receive reports from 
accrediting agencies, school monitoring reviews, and 
requirements for State authorizations of schools. We will apply 
this information, where applicable, to the DOD Voluntary 
Education Programs and use it prior to issuing tuition 
assistance funds.
    Also, the DOD is developing an automated tracking system to 
document all concerns and complaints. The web-based system will 
allow students, DOD personnel, and schools to submit comments. 
The system will track all submissions and record resolutions. 
Information gleaned from the system will be used to address 
improper behavior or questionable marketing practices by an 
institution participating in the Tuition Assistance Program.
    One of the reasons recruits join the military is because of 
educational opportunities, and many of them continue to 
reenlist because of those opportunities. None of this could 
have been possible without Congressional support and the 
funding designated for our Volunteer Education Programs.
    Thank you again for your strong support of our military 
members and their families. I will be happy to respond to any 
questions.
    Senator Carper. Thanks so much for your testimony.
    Mr. Scott, please proceed.

TESTIMONY OF GEORGE SCOTT,\1\ DIRECTOR OF EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Scott. Mr. Chairman and Senator Brown, I am pleased to 
be here today to discuss the Department of Defense's oversight 
of its Tuition Assistance Program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Scott appears in the appendix on 
page 74.
---------------------------------------------------------------------------
    In fiscal year 2010, the program provided $531 million in 
tuition assistance to over 300,000 service members pursuing 
post-secondary education. The Department offers these benefits 
to service members to help them fulfill their academic goals 
and enhance their professional development. The Under Secretary 
of Defense for Personnel and Readiness is responsible for 
oversight of the program. In addition, the military services 
are responsible for operating the program and Education Centers 
on military installations.
    Today, I will discuss DOD's oversight of schools receiving 
tuition assistance funds and the extent to which the Department 
coordinates with accrediting agencies and the Department of 
Education.
    In summary, DOD is taking steps to enhance its oversight of 
the Tuition Assistance Program, but areas for improvement 
remain. Specifically, DOD could benefit from a risk-based 
approach to overseeing schools, increased accountability in its 
quality review process, and a centralized system to track 
complaints. We also found that DOD's limited coordination with 
accreditors and the Department of Education may hinder its 
oversight.
    First, we found that DOD does not systematically target its 
oversight efforts. Instead, DOD's policies and procedures vary 
by a school's level of involvement with the program. Further, 
schools that operate on base are subject to the highest level 
of review, even though over 70 percent of courses taken by 
service members are through distance learning programs. DOD is 
taking steps to create a more uniform set of policies.
    Despite these changes, the Department's oversight 
activities still lack a risk-based approach. For example, while 
DOD monitors schools' enrollment patterns and addresses 
complaints about schools on a case-by-case basis, its oversight 
activities do not systematically consider such factors when 
targeting schools for review. Additionally, the lack of 
accountability for schools and installations to follow up on 
findings and recommendations from educational quality reviews 
may limit the effectiveness of this oversight tool.
    Second, while DOD has several ways for service members to 
report problems associated with their tuition assistance funds, 
it lacks a centralized system to track complaints and how they 
are resolved. According to DOD officials, the Department's 
practice is to resolve complaints locally and to only elevate 
issues that warrant greater attention to the military service 
level. However, DOD and the military services do not have a 
formal process or guidance in place to help staff determine 
when they should elevate a complaint. Without formal policies 
and a centralized system to track complaints and their 
outcomes, DOD may not have adequate information to assess 
trends or determine whether complaints have been adequately 
addressed.
    Finally, DOD's oversight process does not take into account 
monitoring actions by accrediting agencies or the Department of 
Education. For example, DOD could consider whether a school has 
been sanctioned by an accreditor or is at risk of losing its 
accreditation when considering which schools to review. 
Likewise, the Department does not utilize information from 
Education's reviews to inform its oversight of schools. The 
results of Education's oversight efforts can provide important 
insight on a school's financial stability and compliance with 
regulations that protect students and Federal student aid 
dollars. Further, DOD may also be able to leverage information 
from Education's ongoing efforts to improve its oversight of 
distance education.
    In conclusion, the significant amount of tuition assistance 
funds spent on distance learning programs creates new oversight 
challenges for DOD. This is especially true given that the 
Department has traditionally focused on schools offering 
classes on military installations. Although DOD is taking steps 
to improve its oversight, further actions are needed to address 
the gaps we identified. Additionally, DOD could enhance its 
efforts by leveraging information from accreditors and the 
Department of Education.
    I am encouraged that the Department has agreed with our 
recommendations and is taking actions to address them. We will 
continue to monitor the Department's progress in improving its 
oversight of the Tuition Assistance Program.
    Mr. Chairman, this concludes my remarks and I would be 
happy to answer any questions you or Senator Brown have at this 
time.
    Senator Carper. Great. Thanks so much, Mr. Scott.
    Dr. Snead, please proceed. Thank you.

    TESTIMONY OF KATHY SNEAD,\1\ PRESIDENT, SERVICEMEMBERS 
                      OPPORTUNITY COLLEGES

    Ms. Snead. Chairman Carper and Senator Brown, thank you 
very much for the opportunity to talk about the Department of 
Defense's Voluntary Education Program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Snead appears in the appendix on 
page 86.
---------------------------------------------------------------------------
    SOC's primary role in the Voluntary Education Program, as 
defined by our contractual relationship, is verifying that 
institutions that provide undergraduate education on military 
installations are appropriately accredited and that they adhere 
to academic principles and criteria regarding the transfer of 
credit from other colleges and universities and the evaluation 
of military credit from training and experience that they have 
had, and we look at those academic policies that facilitate 
completion of the degree. That is the primary goal for that 
educational program.
    Beginning in 2005, the SOC principles and criteria have 
been expanded with some operating guidelines for member 
institutions that are related to college recruiting, the 
marketing, and student services. The guidelines have really 
evolved over the years into really standards of good practice, 
and the member institutions adhere to those and they affirm 
that every 2 years, letting us know that those principles are 
in place at their institutions.
    In those guidelines and standards of good practice, we talk 
about outreach efforts and that those advertising and marketing 
efforts need to really focus on the educational programs to 
make sure that students are aware of the cost, also the 
requisite skills that they need to have to be able to 
successfully complete that program. In addition, those 
principles and criteria really state that the high-pressure 
promotional activities and enrollment incentives are 
inappropriate practices for our member institutions.
    With the increased funding levels in the recent years, both 
with military tuition assistance and the G.I. Bill programs 
that contribute toward the veteran and the service member's 
education, I think some institutions have sought to limit their 
capital risk by heavily recruiting students who are supported 
by guaranteed Federal monies, whether it be the financial aid 
program Title IV, military tuition assistance, VA educational 
benefits, and this is done to really reduce the risk of 
enrolling students who are solely relying on their out-of-
pocket funding sources, which fluctuate in the economic 
downturns. To focus on recruiting students to start college 
without regard to the student success metrics may be where some 
of the potential abuse of the DOD Tuition Assistance Program 
may lie.
    Mr. Gordon referenced the Department of Defense instruction 
that has been revised and has the Memorandum of Understanding. 
In addition to the MIVER, all of the institutions who 
participate in the Tuition Assistance Program will be required 
to adhere to the SOC principles and criteria and to our 
Military Student Bill of Rights, and we have included that as 
an appendix with the written testimony. So these added 
measures, I think, will help document, identify, and also track 
adherence to standards of good practice and there will be 
greater focus there on the compliance.
    SOC's contract also identifies a second role that is 
related to college and university compliance and standards of 
good practice. We serve as an ombudsman for counseling and 
troubleshooting, academic counseling and troubleshooting. In 
this capacity, the staff serve as ombudsmen for individual 
students who identify a grievance or a complaint or the 
military services through the Education Services Office (ESO) 
who have cited a complaint or a grievance against an 
institution. To the best of our ability, we investigate, we 
problem solve and try to negotiate or resolve those issues. If 
we are unable to resolve that, then we do forward those 
complaints and issues to the Inter-Service Working Group, the 
Department of Education, and to accrediting agencies, as 
appropriate.
    With respect to improving the fraud prevention in the 
Tuition Assistance program, my recommendation would be for more 
frequent and systematic analysis of the student TA enrollment 
data. The accountability measures that have been employed are 
primarily focused on program accountability. Is the student who 
is being funded with tuition assistance being paid? Are those 
colleges being paid? And if the student does not successfully 
complete his or her course, is that being repaid to the 
government? So they have been following government procedures 
there.
    And I think we could extend that same analysis at the 
individual level to the institutional level, to look at the 
tuition assistance data for the institutions, look at course 
completion, course withdrawals to be able to get a better 
handle on some of the concerns there. Systematically reviewing 
those course completions, I think, would prove insightful, and 
as well, collecting and aggregating such data across the Armed 
Services would be instructive.
    Finally, I would suggest that you replicate similar data 
analysis with the VA educational benefits. That would also go 
across tuition assistance. Since some service members top up 
their tuition assistance funding with VA educational benefits, 
some of the same advertising, marketing strategies may be 
employed by institutions that are working both with veterans 
and our service members. Thank you.
    Senator Carper. And thank you very, very much.
    I have asked Senator Brown if he would like to lead off. I 
think we are going to maybe have a vote or two sometime after 
3:30, and he has got to be on the road at 4:00, so I am going 
to go first with him. Thank you.
    Senator Brown. That is very thoughtful, Mr. Chairman. That 
is why everyone loves you.
    So my concerns are that you have somebody who is back from 
military service. They take advantage of the wonderful programs 
that we offer. They go and they take part in one of the long-
distance learning programs. They complete the course. And then 
maybe they want to go and get a Master's and then those credits 
are not counted and/or they do not finish, and what is the cost 
to the government by--well, I want to know why they did not 
finish. Was there a breakdown? Did they realize that their 
diploma maybe is not as good as it should be? And then what 
happens to the funds to the institutions? Do we get some type 
of reimbursement to the government? So a lot of it with me is 
about the accountability part and to make sure that we are 
getting the best value for our dollars.
    And with that being said, Mr. Gordon, when will the new 
contract for the MIVER be awarded?
    Mr. Gordon. Senator, it will be October, basically, of this 
year. So we had our old contract with ACE that ended in October 
of this last year. We are in the process of putting that new 
contract together and we will compete that contract in the next 
couple of months.
    One of the questions has been, well, why the gap, for 
example, between last year and this year.
    Senator Brown. That was my question.
    Mr. Gordon. Right. [Laughter.]
    Well, and one of the answers to that is the old contract 
did not cover online institutions. So with this rapid growth in 
online institutions and then the consumption of such on the 
part of our service members, we felt that we can take this time 
to ensure that we are doing it right, building the clock right 
in terms of this new contract to incorporate online 
institutions, all institutions, take some time to learn about 
how to do that, to partner with the Department of Education and 
others to figure out what that contract should look like, what 
the protocols and regulations should be. So usually, any given 
year, the old MIVER covered roughly about five installations, 
roughly about 20 to 25 schools. But again, they were brick-and-
mortar schools on post or on base. So we think we can take this 
time to do it right and get a good contract there to cover all 
institutions.
    Senator Brown. So, as you know, distance learning is 
nothing new and we know there has been a significant enrollment 
by our service members. It has been happening for 3 or 4 years. 
Do you hear anyone saying, or do you feel that the DOD has been 
a little bit behind the curve on this issue?
    Mr. Gordon. Actually, I think we have been ahead of the 
curve, because DOD has been doing distance learning for years 
and years and years. What is new is the online aspects of 
distance learning. We have had, as we all know, sailors on 
ships for a long time and----
    Senator Brown. Yes, I have taken them----
    Mr. Gordon. Yes, absolutely.
    Senator Brown. Still do.
    Mr. Gordon. Right, and so distance learning is not new to 
the military. What is new is the online aspect of it. So I 
think we are learning with everyone else. We are seeing this 
evolution across the country of online education, of blended 
learning.
    I just had a group into my office, I think it was yesterday 
or the day before, that had a virtual blended education, 
basically, for social workers. Some of that blended education 
focused on our military community.
    So things are changing, I think, in terms of education 
across the country. We are all learning about that sort of 
evolution. I think what is important is to give our service 
members opportunities to take and consume education from great 
colleges and universities across the country, and at the same 
time ensure we do have the safeguards in place for those who do 
not provide it to steer our service members away from it.
    Senator Brown. Thank you.
    Mr. Scott, do you have any concerns at your organization, 
there is a gap at all?
    Mr. Scott. Senator Brown, of course, being from the GAO, 
any gap in coverage, per se, would at least from our 
perspective be somewhat troubling because we do want to make 
sure that during this period of transition and change, that 
there continues to be sufficient oversight of the schools.
    As I mentioned in my oral statement, we are encouraged by 
the number of actions DOD has committed to take in response to 
our recommendations. We feel that our report and our 
recommendations provide a good road map for the Department in 
terms of enhancing its oversight of all schools participating 
in the program. That said, though, I would hope there would be 
some plan in place to provide some interim coverage during this 
year, during this period of transition.
    Senator Brown. Thank you.
    And Mr. Gordon, I know that about $3.7 million is what the 
duration of the previous MIVER contract with the ACE was. So 
after that amount of money and about 4 years of work, what kind 
of insight do you have as to whether the ACE's recommendations 
were fully implemented at the 60 or so installations that were 
actually reviewed?
    Mr. Gordon. Well, I think the good news story there is that 
we worked with those installations once the ACE has findings in 
terms of some improvements. We work with those installations to 
ensure that those improvements take place so that our service 
members are provided a better education.
    So I think the advantage of our system in the past has been 
that, clearly, areas have been uncovered that should be 
improved. It has been very collegial in terms of working with 
those institutions. But again, the shortfall is that we did not 
cover online institutions with that old contract. We will be 
able to do so.
    Senator Brown. And Dr. Snead, I do not want to let you look 
lonely over there.
    Ms. Snead. I am fine, really. [Laughter.]
    Senator Brown. So I was wondering if the SOC has any 
involvement in keeping service members better informed about 
their benefit qualifications and educational opportunities. Is 
there anything you need to let us know on that front?
    Ms. Snead. Certainly, one of the things that we do is to 
provide information to all of the military installations 
through the Education Offices. So the publications we provide 
on identifying the right fit in terms of an institution, the 
right type of degree program, we make that available through 
the Education Centers. Our troubleshooting and counseling, 
function, as I mentioned also, we have both a Web site and 
phone service. It is not 24/7, but we are able to respond 
within 24 hours to a lot of the both service members' and their 
spouses' questions about education, about the financial 
assistance, and directing a program, finding one.
    Senator Brown. Thank you, Mr. Chairman. I will wait until 
the next round.
    Senator Carper. I want to follow up, if I can, on one of 
the questions that Senator Brown was asking. I have a couple of 
charts up here. I do not know if we can put them up, if we 
could.
    But, Mr. Scott, in your testimony, I think, you raised a 
number of important points, but I want to try to illustrate one 
or two of them with some charts. And the first chart here on 
the left, the one that reads ``DOD Tuition Assistance,'' \1\ it 
looks like we spent--we, the taxpayers--spent about $517 
million in fiscal year 2009 on tuition assistance benefits. Is 
that a correct number?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Carper appears in the appendix 
on page 122.
---------------------------------------------------------------------------
    Mr. Scott. I believe that is correct.
    Senator Carper. OK.
    Mr. Gordon. That is correct.
    Senator Carper. The next chart that we have here, one that 
labeled ``Lack of DOD Oversight,'' \2\ you see that about $360 
million of this number was not subject to DOD's quality review. 
In fact, only about $157 million was subject to this review. Is 
that correct?
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Carper appears in the appendix 
on page 123.
---------------------------------------------------------------------------
    Mr. Gordon. I have not seen that before----
    Senator Carper. Mr. Scott, is that----
    Mr. Scott. Well, I think the one thing we will want to note 
about the lack of DOD oversight, the $360 million, I believe, 
relates to the distance education portion, while the $157 
million would relate to funds spent for in-classroom 
instruction on military installations. The one thing I would 
clarify with that, though, is that simply because it involves 
in-classroom instruction on military installations does not 
necessarily mean it was actually reviewed as part of the 
process, because as we know, there is only a limited number of 
reviews that are conducted each year.
    Senator Carper. It strikes me as strange, if that is the 
way it breaks out, $360 million on tuition assistance payments 
for distance learning courses, and the--so that is the bulk of 
this $517 million. But we actually did the quality review when 
the course was actually provided on base in person. It just 
seems like--it seems strange.
    Mr. Scott. I think, as Mr. Gordon has pointed out, though, 
they are taking steps to address that gap through the new 
process they are developing.
    Senator Carper. Yes. And I think we have a third chart 
here. It says, ``No DOD Oversight Until October 2011.'' \3\ The 
contract lapsed December 31, 2010. I think October--it is not 
entirely clear to me what happens on October 1, 2011. Do we 
have a quality review in place for all these many courses that 
are being offered through distance learning? Is that when a 
contract is awarded? Is it possible that there will be a 
contract awarded and then litigation maybe that grows out of 
the awarding of the contract? We see that all the time. We 
finally just awarded a contract to Boeing for tankers and it 
has been years in the making. So what are we looking at here in 
terms of--I want to actually have the quality review in place 
and somebody doing the job and doing it well. 
---------------------------------------------------------------------------
    \3\ The chart referenced by Senator Carper appears in the appendix 
on page 124.
---------------------------------------------------------------------------
    Mr. Gordon. Right, Senator. We plan to start that quality 
review in October. We will award that contract before then.
    Just some thoughts, I think, on the numbers. Of course, 
that is a snapshot, when you see the $360 million in fiscal 
year 2010. Over time, of course, we have had this growth of 
online institutions and we had a review process in place that 
was focused on installations. So over time, of course, the 
number of our service members who were migrating over to online 
institutions grew, and, of course, our MIVER did not cover 
that. So we plan to cover that now. So I think the good news 
story is we are going to cover now, with our new MIVER, that 
$360 million that you see up there.
    My response in terms of this gap, tough business, I think, 
in terms of really understanding what it is that we really need 
to look at for online institutions. We have to have time to get 
this right. And we are working, I think, with the right groups 
to do that. We are thinking comprehensively and judiciously 
about it. But I would just submit to you, because we have to 
get that 360 covered, we do need some time to ensure that we 
have a clock that is built to cover it adequately.
    And the whole idea is, no, let us not award the contract in 
October. Let us begin in October. So we plan to award that 
contract before then.
    Senator Carper. All right. A question--in a minute I want 
to ask you about incentives, the way you have aligned 
incentives here to get better performance out of the schools, 
better product for the military personnel. But let me just take 
another minute and ask on my first question, why did we not 
just keep the current contract going?
    Mr. Gordon. Well, the contract----
    Senator Carper. It ended at the end of last December, 
right?
    Mr. Gordon. Right, and the--well, October, the contract did 
expire.
    Senator Carper. So, basically, we are running without 
pretty much anything, as I understand it, for about a year.
    Mr. Gordon. For a year.
    Senator Carper. That seems strange----
    Mr. Gordon. Well, one thing----
    Senator Carper [continuing]. Especially in a climate where 
we know that the product that is being delivered, the education 
that is being delivered to a lot of our students, frankly, is 
disappointing, even disturbing.
    Mr. Gordon. Yes, Senator, but I would submit that contract 
would not have covered the $360 million. Now, it would have 
covered those brick-and-mortar schools, basically, that we 
currently have on our installations, but it would not have 
helped us one bit to get to that $360 million in those online 
institutions. So what we decided to do was focus this year on 
developing that new contract that would do it.
    Senator Carper. All right. I want to go back, and maybe, 
Dr. Snead, we can lead off with you on this. We talked a little 
bit about this when you were kind enough to meet with my staff 
and me, the issue of aligning incentives in a way to drive good 
public policy behaviors. It is something that intrigues me. I 
studied a little bit of economics at Ohio State. My professors 
would say, not enough. I studied a little bit more when I got 
my MBA at Delaware. My professors would say, probably not 
enough.
    But I have always been fascinated with how do we harness 
market forces to drive good public policy behavior, and I just 
want to make sure that we do not continue to have our 
incentives maybe misaligned, that we actually do a better job 
of saying we are going to compensate schools, not just for the 
number of people that they put through the program, or actually 
bring into the program, but the number that they actually say 
at the end of the day, well done. You have completed these 
requirements. Here is your diploma. Here is your certificate of 
completion. And that it actually means something. It actually 
means that they have the ability to go out and get a job and to 
be able to make money to repay not just their loan, but to go 
out and support their families and live a decent life.
    Talk to us a little bit about how we might change the way 
we align the incentives to get the product that we all want, 
and, frankly, to reduce the need for regulation.
    Ms. Snead. Well, I am with you in terms of economics. I did 
not have an economic course in any of my three degrees, so you 
are ahead of me there.
    And I would see it more perhaps turning it the other way. 
My expectation is that colleges and universities that 
participate in the Tuition Assistance Program meet certain 
guidelines for success. They have success metrics in place and 
they can demonstrate to us that they are doing a good job. If 
they cannot do a good job, if they are not providing the 
education that we want, we do not then fund them. So in a way, 
it is a disincentive, that if they are not providing the 
services and we cannot look at measures of success, then they 
should not be in the tuition assistance or education benefits 
for the Veterans Affairs program.
    Senator Carper. If we want to reward success, how should we 
be measuring success and this Tuition Assistance Program? That 
is a question for you, Dr. Snead, and Mr. Scott, as well. But 
how should we be measuring success?
    Ms. Snead. And that is----
    Senator Carper. Sometimes, we like--and we had an event 
this morning, Senator Brown, where some of us were over at a 
school here in Washington and we were talking about how do we 
measure success in schools. And sometimes in education--in a 
lot of programs--we try to say that we measure process. We do 
not measure product, we measure process, and we reward process. 
That does not work anymore. I mean, we have to figure out how 
to measure success and reward product, not process, but go 
ahead. How do we measure success in this?
    Ms. Snead. Well, and that is difficult. Our organization 
actually----
    Senator Carper. That is why we ask you. [Laughter.]
    Ms. Snead. I know. Well, we hosted a burning issue summit 
on that very thing in February, and----
    Senator Carper. This last month?
    Ms. Snead. Just this past month, and had probably 200 
educators in the room discussing the issue. Part of it has to 
be quantitative, to be able to look at course completion. How/
where does the student start? Are they successful? And part of 
that also is looking at the qualitative measures of what tools 
or what sort of support is the student getting, whether that is 
tutorial assistance, whether it is some guidance before they 
start, are you ready for an online or a distance learning 
program.
    The Army, probably 4 or 5 years ago, had a program called 
PREP, and I do not even remember what the acronym stands for, 
but I can get that for you. Before soldiers entered in eArmyU, 
which was an online, 100 percent distance learning program, 
soldiers had to go through PREP training, to see whether they 
have the online computer skills, whether they have the reading 
skills to be able to do independent work, and also writing 
skills. And this inventory did not deny participation, but it 
was one of those mechanisms that said to a student, you may 
have difficulty in this online program because your reading 
level is not what might be at a college level. And so then it 
was a discussion point with the Education Services Office or 
the base commander to say for you to succeed, you need to make 
sure you have everything in place and you are willing to study.
    So it is a process and I think the piece I would say, and I 
will defer to others, is to look at the quantitative as well as 
the qualitative measures and what do colleges and universities 
have in place to help students be successful.
    Senator Carper. I am over my time, but Senator Brown, just 
bear with me here just for a minute.
    Senator Brown. All right.
    Senator Carper. Thank you, Colonel. [Laughter.]
    This school that we visited today, one of the things that 
those students have to do, they have to--they take a test that 
measures their progress toward the academic standards that are 
in place for math and English and science and social studies, 
and they take--it used to be they would take, like, an annual 
photograph to see, like, where they were in the spring. But now 
we take tests throughout the year. Students take tests 
throughout the year that measure student progress. A lot of it, 
they do it on computers, so it is a computer-assisted thing. 
And we actually use the data that we get from those testing to 
mine the data and we use it for individual instruction for the 
students. But we actually are measuring success throughout the 
school year.
    And for, I think there is a raging battle, or a raging 
debate going on in this country right now about how do we--
about teacher tenure in our public schools and whether or not 
if school students are not making progress, should they 
continue to be discontinued or eliminated. It is an important 
battle, or issue, and it is one that is actually relevant here.
    How do we measure success, Mr. Scott, and then I will yield 
to Senator Brown.
    Mr. Scott. As Dr. Snead mentioned, this issue of outcomes 
and accountability is a key challenge, not only for the Tuition 
Assistance Program, but for higher education overall.
    One of the key things that folks are having trouble 
figuring out is what does success look like in terms of post-
secondary education? What exactly does that mean? I would 
respectfully suggest that what we might want to also think 
about is what should those metrics look like. They need to be 
meaningful, they need to measure what we want them to measure. 
They actually have to be measurable. There has to be some 
quantitative aspect to this. And they should also be 
transparent so that everyone understands what the ground rules 
are, that we have buy-in from key stakeholders. And once we 
have those ground rules, then I think it is fair to apply those 
metrics across all sectors of higher education, not just for-
profits, but the not-for-profits and the public, as well.
    It is a process. I think this is a key challenge facing 
higher education as we speak. There are lots of dollars going 
into the system and there are lots of questions about the 
benefit we are deriving from those investments.
    Senator Carper. Thanks, and I thank you very much, Scott, 
for your patience. You are recognized for as long as you wish.
    Senator Brown. All righty. Well, let me just walk through, 
for people who may be listening or observing. So somebody 
serves. They become eligible for the benefits, and that is 
accurate, correct? And then they go and they say what? I really 
want to further myself. I want to be a better educated soldier 
or person. And then they would go, let us say if they were 
still serving, they would go to the base commander, or the 
Learning Center on the base to get that guidance.
    How is it determined what type of guidance they actually 
get? Let us say someone is working on the motor pool or someone 
is a hard-charging 11-Bravo infantry soldier. I mean, is there 
a test that they take to determine where they are best 
qualified to kind of focus their skills on, or what?
    Mr. Gordon. The services do it a little bit differently. 
The Air Force, for example, has the Community College of the 
Air Force, so they have a number of strategic planks that are 
associated, basically, with tuition assistance. So each service 
does it a little bit differently. What is baseline, though, is 
having access to counseling on the part of service members 
through our education programs, and then access to education 
about the kinds of opportunities that are available.
    Then I think what is important to underscore when we talk 
about quality and we talk about schools, that only those 
schools, those colleges and universities that are accredited by 
the Department of Education are available for tuition 
assistance, and that is absolutely key in the process.
    Senator Brown. Right. Let us take it a step further. And I 
understand that, but one of the things that we are kind of 
wrestling with is we are spending all this money and we are 
finding out that some of these folks really are not getting a 
good job based upon their training or their schooling after 
they decide to take that step. I mean, I would suggest that 
measuring progress is curriculum development, building a course 
load towards a degree, and then ultimately graduation to a 
junior or a four-year college. I mean, is that--when you are 
saying, how do you measure it, is that not--am I missing 
something?
    Mr. Gordon. I think coaching--well, coaching is available 
and tuition support and assistance. I do want to get back to 
this measurement piece, because when we see the $517 million--
--
    Senator Brown. Well, what is the goal? I guess, so I am 
asking myself, I am listening, I have been reading, I mean, 
what is the goal? Is the goal to take a course and feel good 
about it, or is the goal to get somebody graduated with a 
degree in something meaningful and then get them employed? So 
what is the goal?
    Mr. Gordon. I think a number of things. Lifelong education. 
Lifelong education is a good thing, and what we have as a 
vision is lifelong learning for DOD adult members.
    Senator Brown. What does that mean, lifelong education? Do 
you mean you just want to learn about how to play the violin? I 
am never going to be a violinist. What does that mean, just 
enhancing my cerebral cortex, or what does that mean exactly?
    Mr. Gordon. Well, I think some of the evidence does suggest 
that, especially with today's new technologies, we have 
available to us the ability to continue to be educated and to 
grow.
    Senator Brown. Well, it is always good to grow and be 
educated, but the bottom line is we are spending taxpayer 
dollars to basically provide the tools and resources for our 
soldiers to go out and get jobs and be employable. As you know, 
Guard and Reservists, it is over 20 percent unemployment and we 
are dealing with that in the veterans' community. That is one 
of the reasons I filed the Hire a Hero Act, to try to get those 
people employed. But if we are not giving them the guidance at 
the basic, initial entry level as to what, Scott? You are never 
going to be a concert violinist, but you could be a good fill-
in-the-blank. I mean, are they getting that guidance? When I 
measure success, it is course completion towards a degree to 
get a degree so I can go get a job.
    Mr. Gordon. And our service members are getting their 
degrees. I just want to say that with that $517 million, we 
have over 500,000 service members who are going through our 
educational system, 500,000. So when we take a look at success 
in terms of education, 45,000 degrees that were conferred, I 
mean, those are large numbers----
    Senator Brown. How many degrees have there been?
    Mr. Gordon. Over 45,000.
    Senator Brown. OK. Out of how many?
    Mr. Gordon. Well, we have 500,000 going through the system.
    Senator Brown. OK.
    Mr. Gordon. And what is important, I think what is 
important here is multiple deployments where our soldiers and 
our service members in general need time, basically, to finish 
their education. And we are deployed. We are a deployed force 
overseas. Our service members need time, basically, to complete 
those courses. And so I still think it is a good news story 
that we have an increase in the consumption of education.
    And yes, there are taxpayer dollars. Taxpayers have spent 
money on me to be educated as an Army officer, both my 
undergraduate and graduate degrees. Hopefully, I am providing 
something back to the country for that, and I think that is the 
great benefit of this program.
    Senator Brown. All right.
    Ms. Snead. And I would, if I could add on to that--it is 
the educator in me, I am sorry--but part of the process is when 
someone goes to the Education Center, it is identifying what 
the service member's educational goal is. This is a voluntary--
an off-duty, voluntary education program. So whether it is a 
certificate, an Associate degree, a Bachelor's degree, they 
have identified the goal, and then it is the counselor's role 
to figure out how to get there.
    As a counselor, some of the times it is the service member 
says, what is the fastest way to a degree? I just need a degree 
in order to gain employment----
    Senator Brown. Regardless of just get it, just to check the 
box.
    Ms. Snead. Exactly.
    Senator Brown. Right. OK.
    Ms. Snead. For others, it is, I want a degree so that I can 
then aspire in X, Y, and Z----
    Senator Brown. Computer science, so I can go out and work 
in computers or whatever. OK.
    Ms. Snead. So those are the conversations, and again, it is 
the individual educational goal. Sometimes, we do not have a 
college graduation, or degree completion as being the ultimate 
goal. The measure is whether people achieve the goal that they 
had in mind, whether it is gaining employment after five or six 
courses, whether it is getting an associates degree in 
management so they can own their own motorcycle shop or other 
kind of business. They have acquired the skills, so then they 
are satisfied and they are more productive in that way, so----
    Senator Brown. Well, I think one of the reasons I am going 
down this line is that I do not think we are talking about 
those people that want to be a manager of motorcycles. I think 
we are trying to zero in on some of the, maybe the high-
pressure tactics that some of the Marine Corps and other IG 
offices investigated. I wonder, did some of those institutions 
get kicked off or barred from the installations, number one, 
and if so, how many instances are you aware of and how were 
they handled? Did they go up and down the chain of command? So 
that would be kind of my first thing.
    And, listen, I know there is a lot of good. That is great. 
Amen. But we are not here to talk about the good. I do not 
think we are having a hearing to talk about the good stuff. I 
think we are having a hearing because we are worried and 
concerned about the oversight and we are also concerned about 
are we getting the best value for our dollar, and if not, then 
how can we do it better? And if we need to provide you some 
tools and resources to do things better, what is it? So that is 
kind of where my head is at, Mr. Chairman, and so if maybe you 
could just----
    Mr. Gordon. Yes, Senator, and we are really happy to do 
that and to be working basically as a government to ensure that 
we are providing that correct oversight. And you are correct, 
there are some institutions that are very aggressive in 
marketing. I think what we can do and will do better is help to 
educate our commanders, actually, in addition to the Education 
Officers. It is really about the education, I think, of our 
post and our base commanders about some of these practices and 
some of the protocols that they can use and procedures they can 
use to both monitor when these actions take place and then take 
action. So there is some additional work to be done, quite 
frankly, and we are going to do it.
    Senator Brown. Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Brown.
    I think you just made a good point there, Mr. Gordon. One 
of the values of what we are doing here, this Subcommittee 
asked GAO to do this study. We have asked them to put this 
program really under a microscope and find out what we are 
doing well and what we are not and to try to figure out what we 
could do better. They have spent the time, I think a fair 
amount of time, a lot of human resource hours, to drill down 
and to look at the good, the bad, the ugly, and to come back 
with a set of recommendations.
    We are now holding this hearing to illuminate what they 
have found and for you to have the opportunity on the part of 
DOD to say, this is what was found. We, frankly, agree with all 
the recommendations, the major recommendations that were made, 
and we are beginning to follow up and act on those 
recommendations.
    If that is all that happens out of the work that has gone 
into this last year, that is all that happens, that is a good 
thing. If base commanders, the base commanders and folks that 
are, whether it is Dover Air Force Base or a base in Oklahoma 
or Massachusetts or any other place, if they get wind of what 
is going on and they have a better sense that some of these--it 
is not just the brick-and-mortar schools that are offering 
courses on their bases that is important to monitor and to be 
concerned about the welfare of their men and women, they need 
to be concerned about the quality education that their folks 
are getting on these online schools and distance learning 
schools, that is really important here, as well. So that is 
part of the value of this hearing.
    Another comment I would make, I think, in response to 
Senator Brown's question about measuring success, and I think, 
Mr. Gordon, you mentioned one of our goals is lifelong 
learning, and I strongly agree with that. One of the reasons 
why we have hearings in the Senate is to help us, as Senators, 
to actually get a little smarter and hopefully a lot smarter on 
the broad range of issues that are before us.
    I like to say--I said it already once today, I will say it 
again--I know everything I do, I can do better. And one of the 
ways that I hopefully can get better is get smarter, and one of 
the ways I get smarter is to prepare for these hearings and to 
actually sit through them and participate in them.
    But if you have a student, maybe a student who had not done 
all that well in public school, K to 12, and they are in the 
military, they sign up, for classes maybe for reasons that are 
not all that good or maybe they are well intentioned but maybe 
they are under some pressure, but they are signed up to 
participate in a course, a portion of which the cost is borne 
by the Tuition Assistance Program, and they have a bad 
experience, or maybe a couple of bad experiences in terms of 
not getting the kind of support they need, maybe being in over 
their head right from the start.
    We see every semester at Delaware Technical and Community 
College, a very good community school, where students graduate 
with a high school degree, start at Del Tech. They cannot do 
Del Tech math. They cannot do Del Tech English. They need 
remedial training. They need preparation before they are going 
to even have a chance of being successful. So if we want to 
encourage people to really buy into lifelong learning for 
themselves, part of it is to make sure that they have some 
success right from the get go.
    I have another question, if I could, for Mr. Scott. I just 
want to revisit this a little bit before I turn to the next 
line of questioning. But Mr. Gordon characterizes the audit 
that GAO has done as, I think the word that was used was 
``favorable.'' I am not sure that is quite what I came away 
with. In fact, I think your audit says that DOD has taken, I 
think the word was ``steps,'' but you believe that areas of 
improvement remain.
    Could you just take a moment and elaborate again on what 
are some of those areas of improvement that remain and talk to 
us about how you, GAO, how we, the Legislative Branch in our 
oversight role, how we can make sure that those areas of 
improvement do not remain all that long, that they are actually 
addressed. Please.
    Mr. Scott. Thank you, Senator. As I said in my statement, 
we believe that the Department of Defense is taking some steps, 
but we also want to make sure that we continue to monitor their 
progress in the areas we identified. That includes working with 
the Department of Education and leveraging information that is 
available there, taking steps to hold installations and schools 
accountable for the MIVER process. I think some of the things 
they have laid out in the MOU and the new process will help 
address those concerns.
    So the five recommendations I believe that we laid out in 
the report, we see as key steps in helping to improve 
oversight. And as I mentioned earlier and Mr. Gordon mentioned, 
the Department is committed to following through on those 
recommendations. So from our perspective, that is encouraging, 
but as I also said, we will continue to monitor them to ensure 
that they do, in fact, follow through.
    Senator Carper. All right. Dr. Snead, Mr. Gordon, any 
comments on what Mr. Scott has just said?
    Mr. Gordon. We plan to follow through, and we do concur 
with those five recommendations.
    Senator Carper. Dr. Snead.
    Ms. Snead. No.
    Senator Carper. No? OK. If I can, a question for Mr. 
Gordon, please. GAO, I think, indicated that they feel that DOD 
lacks a centralized tracking system to catalog and monitor 
complaints. You have indicated that in response, the DOD has 
established a new centralized complaint tracking system that 
satisfies this criticism. What does your new complaint tracking 
system look like? Does it require every base's Education 
Service Officer or whoever fills that kind of role, does it 
require every base's Education Service Officer to register and 
catalog complaints, every significant complaint, at least, that 
is received from military students, or is it just really a 
hotline or maybe a web form?
    Mr. Gordon. Well, we have instituted a web-enabled system 
because we feel that can be very effective. Our base, 
basically, of service members who are engaged in online 
education, or tuition assistance, should I say, do know of 
these Web sites that are available that they go to to learn 
more about the program and then use that information to sign up 
for tuition assistance. So these are not unknown Web sites. 
They can go to them. They can log a complaint or a concern. We 
already have put that system into place. A number of things can 
happen as a result of that. We can either ping one of the 
services to have them follow up or follow up also at our level, 
as well. So we have put a system in place. We will continue to 
refine it. But it is a web-enabled system and we feel that it 
will be very effective.
    Senator Carper. Could you all comment on that, Mr. Scott 
and Dr. Snead, please?
    Ms. Snead. I have only seen the paper diagram that walks 
you through that process. I have not participated in the 
resolution experience yet.
    Senator Carper. Should we be encouraged by what Mr. Gordon 
has explained? Let us say I am the Education Service Officer at 
Dover and we have some folks that are taking--it sounds like 
for every one student there who is taking a brick-and-mortar 
on-base course, or maybe two, they are using distance 
learning--not a bad thing, necessarily. It could be a very good 
thing. But let us say if there are complaints, whether it is 
for on-base or the remote stuff, under the system that you have 
envisioned or are instituting, I get the complaint. Do I have 
any obligation as the Education Service Officer at our base 
to--what am I obligated to do with it?
    Mr. Gordon. Well, I just want to be clear that there are 
some complaint systems already in place. The Army has a great 
system and we are learning from that system, as well.
    Senator Carper. Could you just briefly talk about that and 
say how we are learning from it?
    Mr. Gordon. Well, a number of things. We are designing our 
system by collaborating also with the Army. They have not only 
got a system of complaints, but they have a follow-up system in 
terms of a survey to see what customer support was like, as 
well. So they do have a good system in place and I think the 
advantage of that is we can build upon it and institute more of 
a global system at our level to ensure that we are being able 
to log those complaints and then take some sort of action.
    Now, some of those actions will be the same as before in 
terms of the services looking into those and solving those 
complaints. But now that we have this in place, there is much 
more visibility and resolution on the part of OSD.
    Senator Carper. OK. Not long ago, my family, my wife and 
our two sons and I, were trying to figure out where to go for a 
vacation over the Christmas holidays and we were looking at 
some different hotels to go to in a place where the weather was 
warmer than Delaware. In looking into the different hotels that 
we looked at, we noted that there were a number of comments, 
people who stayed there and liked it, a number of opportunities 
for people to comment that were not all that crazy about some 
things that they encountered. My guess is you all have seen the 
same sort of thing. It is very helpful to have that. And also, 
it serves to--it really serves to incentivize the provider of 
the lodging to actually work a little harder to do a better 
job.
    How is this--is this part of what we are anticipating 
doing, like if I am thinking of taking a course from School XYZ 
and I can go on and look online and actually see there are 100 
comments from people who are thrilled with it, delighted with 
it, and then I say, oh, this is good, but I see 200 comments 
from those who thought this was just a very disappointing 
experience, that is going to inform my decision. How do we use 
that kind of technology?
    Mr. Gordon. Right. Two thoughts. I do not know if we have 
that incorporated into our system, so I will have to take that 
for the record and find out if that is a part of it.


                       information for the record


    The Department does use this kind of technology. However, 
the Department's formal Feedback, Concerns and Record Keeping 
processes do not include a section for military students to 
rate and review their college or university. This is due to the 
overlapping inefficiencies we noted as we started investigating 
adding this capability to our formal system. We discovered that 
of the many web-based programs already in existence which rate 
schools, several of which provide for student rating. Rather 
than developing an additional system and duplicating efforts, 
we are currently reviewing the existing programs for possible 
inclusion into DOD's current system.

    I think, though, that what we can also encourage or that 
can grow out of this new way of education is the degree to 
which our communities share information about schools that 
provide quality education, for example, and if there is some 
sort of assessment system for that is really more community-
based on the part of our service members. So I think that is an 
area that certainly can be explored and that you see emerging, 
I think, across a number of other sectors, as well, whether 
they are hotels or auction services or a host of different sort 
of venues.
    Senator Carper. OK. Yes, ma'am? Dr. Snead.
    Ms. Snead. There are a couple. The distance learning 
institutions have actually set up some Web sites much as you 
describe. It is not necessarily about customer feedback, but 
there are sites called transparent--one is Transparency by 
Design, where the institutions themselves provide you some 
information about degree completion, different rates that they 
have, experiences, cost, a variety of information. So I think 
there can be some lessons there, whereas we are looking at 
colleges and universities trying to help service members find 
the right fit of institution that we use tools like that to 
help provide them some information. And there are a number of 
them out there. What we need is really buy-in from other 
colleges and universities to be more forthcoming with that 
information.
    Senator Carper. So you think that what we need is more buy-
in from----
    Ms. Snead. More institutions who are willing to share that 
information, and so essentially open their books and say, here 
is our--when we are talking about course completion rates or we 
are talking graduation rates, not just their general student 
population but the military student population. Let us look at 
service members, how they are doing through this process, 
whether they are completing their courses, and again, 
satisfaction ratings are certainly good. Having dealt with 
students long enough, I am also skeptical that the ``Rate My 
Professor'' and a couple of those sites may or may not be the 
most useful. So we just need to build in the right pieces there 
to look at institutions and to look at the quality of the 
program offerings that we have. What are their employment 
statistics or their promotion rates once someone has completed 
a degree with that institution?
    Senator Carper. If I were running a school, it was for-
profit, private, public, I would--I am enrolling a lot of 
students with the taxpayer dollar and I were asked to provide 
course completion information, graduation completion 
information, if I were proud of the work we were doing and 
happy to compare that with anybody else, that could be a real 
good marketing tool for me. But my sense is that we do not 
always get that information.
    And I was talking earlier about aligning incentives and 
trying to measure success, but not everybody in the military 
that is taking these courses under the Tuition Assistance 
Program, not everybody wants to get a degree. Not everybody 
wants to get ready to find a job when they leave the military. 
But a lot of people do. A lot of people do.
    When I think of how do we measure success, set aside the 
people that want to learn more about auto mechanics or playing 
the guitar or just things that are interesting to do and maybe 
make life richer or more interesting. But those that really are 
looking for improving their standing in the military, their 
ability to get promotions in the military, in addition to be 
successful when they leave the military, because a lot of us 
have gone into second careers, third careers. But it would 
certainly be helpful to know that kind of information that you 
just mentioned--course completion, graduation completion, and, 
frankly, it would be helpful to know something about job 
placement. That would be very helpful things to know.
    At the end of the day who is paying for it? Taxpayers are, 
and we are way in over our head. We have a trillion-and-a-half-
dollar deficit this year. The President said, we want to out-
educate, out-compete, out-innovate the rest of the world and we 
do not have a whole lot of money to play with. So it behooves 
us all to figure out how to, as I said earlier, to get more 
without paying a whole lot more, better results.
    Let me--I want to go back to Mr. Gordon, if I can, and I 
just want to make sure I have this. My staff gave me this 
question and I am just going to read it verbatim. It says, from 
the system in place, what have you learned? How many complaints 
so far this year?
    Mr. Gordon. Right. Since we have placed it--and I just want 
to make sure I am correct--we have had at least 10 complaints 
at our level. What we have learned, well, it is new. We have 
instituted this system fairly recently. I think the big 
learning is that the complaint process is being used at this 
point in time and we will continue to refine it and to improve 
it. But the big learning is that it provides us yet another 
lens, I think, through which we can better understand some 
shortcomings in the community that we can solve and resolve.
    Senator Carper. Let me come back to you, Dr. Snead, if I 
could. We have some public schools, public colleges, some 
private colleges, we have some for-profits that are actually 
doing a very good job of trying to make sure they are not 
abusing anybody when they recruit, they are recruiting in a 
fair and open way, in ways actually mindful of the Golden Rule 
of treating other people the way we want to be treated, that 
when they bring in people who, frankly, are going to be 
challenged by the coursework, they try to make sure that they 
get the, maybe the earlier training or the remedial work before 
they actually start doing the more rigorous coursework. They 
make sure that folks get tutoring if that is needed. One of the 
reasons why we included tutoring in the G.I. Bill for, I think 
it is about maybe, I do not know if it is a thousand dollars a 
year or whatever it is, but we want to make sure that we are 
not just throwing good money after bad and we are paying all 
that tuition money, but to ensure that the tutoring is there if 
it is needed.
    But when you look at the folks that are doing a good job--I 
think you had 1,800 or 1,900 colleges or universities--when you 
look at the ones that are doing a good job of making sure that 
folks are ready, walking them through this process, getting 
their classwork done, their courses completed, hopefully get 
their degrees completed if that is what they want, when you 
look at the ones that are doing a really good job and those 
that, frankly, are not, what can we learn from the ones that 
are doing an especially good job, whether it is public, non-
profit, or for-profit?
    Ms. Snead. And I think one of the defining factors is that 
they have the good of the service member at the center focus of 
their efforts. So they are really in touch with the needs of 
the service member and they are looking at the variety of 
services, and they are also providing that feedback. And as you 
said, many institutions, we are spending time talking about 
probably a very small number of institutions in the aggregate 
when you look at that total number of institutions, and many of 
them are doing great things.
    They have training for their faculty members in terms of 
military culture, helping them understand their military 
students. They have online training for their faculty who are 
going to be teaching online so it is not a professor who has 
been teaching in a brick-and-mortar institution or in a 
classroom for 30 years and now being given an online lesson. So 
there are lots of positive things, and again, the service 
member and the military student is always at the heart of that 
institution when they are planning their course work, when they 
are planning their curriculum. They have the best interest of 
the student at heart.
    Senator Carper. Mm-hmm. Mr. Scott, same question. I realize 
you wear a different hat than Dr. Snead does--you probably wear 
several hats--but just put your taxpayer hat on or your GAO hat 
on and give me your thoughts.
    Mr. Scott. Well, interestingly enough, Senator, GAO 
actually has a couple of studies underway right now that are 
trying to better understand this issue of outcomes and 
accountability, including what might potentially be some 
promising practices that we might identify as it relates to 
distance education and some other areas. So with that said, I 
am hoping to have more to say along those lines this fall when 
those studies become public.
    Senator Carper. So you think we will have something from 
you this fall?
    Mr. Scott. There are a number of studies that we have 
currently underway that will, I believe, help inform this issue 
about outcomes across all higher educational sectors. We have 
an engagement going on right now looking at distance education, 
what are some of the challenges with distance education, what 
are some of the safeguards, what are some of the promising 
practices. We are also looking at what steps is the Department 
of Education taking in terms of improving its oversight of 
distance education. So I believe this study is on track to be 
issued this fall.
    Senator Carper. Good. Do we have to wait until this fall 
before we can be better informed what is going on at the 
Department of Defense? That was a question I would ask of you, 
or is there something that you think maybe there is a dialogue 
going on or some lessons learned that you can share with them 
prior to this fall? Is that possible?
    Mr. Scott. Well, we are always happy to share information, 
where appropriate, with the cognizant Federal agencies. I think 
one of the things that is really important, especially during 
this period of transition, is for the Department to work 
closely with the Department of Education, both in terms of the 
distance education issue, but also just more generally in terms 
of the higher education community is a very large and diverse 
community. And so I think to the extent that the Department of 
Defense can leverage the expertise and the knowledge that is 
within the Department of Education, it will really benefit them 
as they transition to their new oversight regime.
    Senator Carper. Mr. Gordon, do you want to take 60 seconds 
on that, or do you want to pass?
    Mr. Gordon. Well, I agree with that. I think we do and we 
are working much more closely with the Department of Education. 
The Department of Defense globally is involved in education for 
kids. We have 1.2 million military children coursing through 
the veins of our education system, our spouses are roughly 
around 750,000 spouses, and our service members. So what it 
means is developing a comprehensive education strategy is 
important and working very closely with the Department of 
Education is essential to do that.
    Senator Carper. Good. That actually leads me into the next 
question I wanted to ask, and I just want to make sure I have 
this right. GAO's report, I believe, indicated that the 
Department of Defense had actually fairly limited interaction 
with the Department of Education. When my staff met with DOD 
last, I think it was last June, they reported that there was no 
formal or regular interaction between DOD and the Department of 
Education on issues of fraud and on waste and quality of the 
curriculum. Has that changed at all, and if so, when and how 
did that change?
    Mr. Gordon. Well, I have been in the Department of Defense 
since July, actually July 19 of last year, and I can tell you 
that I have been a party to and witness of a number of meetings 
between our staff, between me, of course, and the Department of 
Education so we can much more closely coordinate our efforts.
    Does that mean that more can be done? Yes, and I hope to do 
that. I think the beauty of this report is it helps to give us 
an azimuth for how we can also collaborate in different sorts 
of ways. I think the strength of the GAO is it gives you that 
additional set of eyes where you can do things more and better 
to improve both the quality and ensure that we are providing 
the kind of access we need to education for military service 
members. So I have seen collaboration, but I think we can do 
better and we will continue to do so.
    Senator Carper. Well, as I said earlier, everything we do, 
certainly me, I know we can do better. That is why I am pleased 
to see that the GAO investigation that we had requested has 
helped to spur the Department of Defense and the Department of 
Education to begin a better dialogue about these issues, and we 
want to improve even beyond that. We would like to have seen it 
happen some time ago. However, having said that, we are just 
pleased to see it appears to be in effect now.
    I am going to ask one more question, I think, of Dr. Snead 
and Mr. Gordon, and then my last question will be sort of 
asking you to--we do not often give witnesses a chance to do a 
closing statement. We always ask you to do an opening 
statement. I want you to give a closing statement--not now, not 
now, but after I ask this next question. Just be thinking about 
your closing statement, maybe just kind of reacting to what you 
have heard from the other witnesses, maybe reacting to what you 
heard from Senator Harkin or the questions that Senator Brown 
and I asked. Just be thinking about it, if you will. While you 
are thinking about that, I will ask this question.
    And thanks to the efforts of Senators Webb and Durbin and 
others, the Department of Veterans Affairs just announced that 
it would suspend the G.I. Bill payments to several schools 
because of the questionable recruiting policies that were being 
used by those institutions. You will recall, Senator Webb was 
really the driver in the new G.I. Bill, the most generous G.I. 
Bill we have ever seen in the history of our country. Has the 
DOD ever been forced--this is, again, for Mr. Gordon and Dr. 
Snead, but do you know if the DOD has ever been forced to 
refuse tuition assistance payments to a school or put them in a 
sort of like a ``do not pay'' list? We have contractors who we 
sort of have a ``do not pay'' list because they owe 
obligations. They have not paid taxes to the Federal 
Government. But has the DOD ever been forced to refuse tuition 
assistance payments to a school or put them on a ``do not pay'' 
list, and is DOD maybe working with the VA to ensure that 
tuition assistance payments are not just going to these same 
schools?
    Mr. Gordon. To my knowledge, we have not. We do not have 
that sort of list. Using the military installation Volunteer 
Education Review that we currently had in place, it really 
portended, actually, working together with the schools to make 
improvements in any anomalies or shortcomings that we found. We 
felt very comfortable that through working with the MIVER 
findings and making those sorts of improvements, the schools 
were very responsive to that and were providing an education 
for our service members.
    I am knowledgeable about this recent action. The good news 
is, to my knowledge, we do not have any service members who are 
part of those schools that have been put on those lists, but 
clearly, what it means is that we can also do more in terms of 
ensuring we have coordination with the VA, because there is 
that transition from active duty, when you qualify for tuition 
assistance, of course, into being a veteran, where you qualify 
for the G.I. Bill, and so the coordination is important.
    Senator Carper. I am going to submit some follow-up 
questions. One of the follow-up questions I am going to ask is, 
do you think there might be some value in DOD working with VA 
to ensure that the schools that they have identified as schools 
that are sort of like on a ``do not pay'' schools list because 
of some of their behavior, questionable behavior, objectionable 
behavior, that maybe there is some overlap here that you all 
should follow up on. I will ask that question----
    Mr. Gordon. Absolutely.
    Senator Carper [continuing]. And look forward to your 
response. I would urge you to do that.
    Mr. Gordon. Mm-hmm.
    Senator Carper. And this would be for Dr. Snead. Has your 
organization ever referred a school to an accrediting body 
because of unethical or improper behavior, that you are aware 
of?
    Ms. Snead. Yes, we have, and, in fact, one that we have 
recently been involved in, we were unable to resolve. It was 
Army and Air Force issues with tuition assistance and improper 
behavior on an installation, aggressive marketing, and we filed 
a complaint with the accrediting body, and as a result, the 
institution most recently has lost their accreditation. So that 
is essentially--will be a ``do not pay'' because they will not 
be accredited by that agency. Therefore, they would not be on 
the Department of Education list and they would not be eligible 
for tuition assistance then.
    Senator Carper. OK. Thank you.
    Well, we very much appreciate your preparation for today 
and we appreciate your testimony today and your response to our 
oral questions and we look forward to responses to some written 
questions.
    I would just ask, how long do our Subcommittee Members have 
to submit letters? Two weeks? Over the next 2 weeks, our 
Subcommittee Members can submit in writing follow-up questions 
within 2 weeks. We just ask that you respond to those promptly.
    And now, this is a chance for each of you, if you will, to 
let us have a closing statement, some reflections, just based 
on what we have talked about here today. Dr. Snead, why don't 
you go first, and then we will go to you, Mr. Scott, and then 
Mr. Gordon. Some good take-aways for us.
    Ms. Snead. Well, I think we have all discussed today the 
value of the Voluntary Education Program and how it is really 
important to----
    Senator Carper. Let me just interrupt. One of the things I 
want to ask you to do as you do this--I should have said it--
think of yourself--we are all taxpayers, all right, so we all 
have a dog in this fight. This is our tax money. We care about 
the men and women that serve us on active duty, and a lot of 
them are putting their lives on the line for us, literally, as 
we gather here today. We care about them and we care about 
their families and we want them to have the best that we can 
provide for them. So keep that in mind as you respond. Thank 
you.
    Ms. Snead. I think all of us do have the best interest in 
mind and it is extremely important that we make sure that it is 
a quality product that we provide. Our organization takes that 
seriously. We look at colleges and universities and sometimes 
we do have to ask the tough questions. Our role in this process 
is really more of what I would describe as really a 
facilitator. We want the institution to improve services to 
their service members, to their families, and also to the 
veterans. So I think our take-away is to continue to be 
vigilant in the complaints and the issues that we see and 
really try to do the best we can to improve on that educational 
setting.
    Senator Carper. OK. Thank you.
    Mr. Scott, some closing thoughts, please?
    Mr. Scott. Thank you again, Senator, for the opportunity to 
testify today. Clearly, the DOD Tuition Assistance Program is 
an important program in terms of supporting the education of 
our service members and the work that we have done on this 
program highlights some areas for the Department to continue to 
improve upon.
    Generally when I discuss oversight and what good, effective 
oversight looks like, I always put it in terms of you need 
clear rules, safeguards, in place to protect students and the 
Federal investment. You need tools. You need an effective set 
of tools to provide ongoing monitoring and oversight. And 
finally, you need a range of mechanisms to hold schools 
accountable.
    So to the extent that as the Department of Defense moves 
forward in developing its new oversight regime, I think it is 
important to keep those goals in mind. Having clear rules, 
safeguards in place, having a range of tools to allow you to 
effectively monitor and oversee schools, and finally, having 
mechanisms in place to hold schools accountable. And so to the 
extent that the Department can make progress in those areas, I 
think that it will just ensure that the TA funds are being 
properly used and our service members are receiving the quality 
education they deserve. Thank you.
    Senator Carper. Thank you.
    Mr. Gordon, please, closing thought, please.
    Mr. Gordon. Well, I just want to thank you, as well, 
Senator, for giving us the opportunity to testify.
    My closing thoughts are our education system in this 
country continues to evolve, and I think the good news about 
that evolution is the potential access to education by more 
citizens in the United States and our service members are a 
subset of that. We do owe those service members, in fact, our 
commitment to ensure that they have an access to the best 
quality education, especially given our multiple deployments 
and the fact that our service members are asked to sacrifice 
for their country in ways that often impede their ability to 
consume that education at a rate that others can.
    And so what I am just delighted by is that I think we have 
the kinds of partnerships and can grow them, both between DOD 
and Education, Congress and GAO and our agencies, to ensure 
that we can sharpen the point of a quality education for our 
service members, and I am happy to be a part of collaborating 
on that process.
    Senator Carper. All right. Thank you.
    Let me just give a closing thought or two, if I could. I 
was 17--actually, 16 years old when I learned that I had 
applied too late to go to the Air Force Academy. I had been a 
Civil Air Patrol Cadet and I was bitterly disappointed. I went 
to three high schools. I was barely learning, like, where the 
restrooms were and it was time to move on and go to another 
school. I like to joke and say I went to three high schools 
until I finally found one that would let me graduate, but 
actually, my father kept getting transferred and we just ended 
up living in a lot of different places at a tough time, tenth, 
eleventh, twelfth grade. And I missed the filing deadline, the 
application deadline for the Air Force Academy and was really 
very disappointed. It was a sad time in my life.
    And 1 day, sitting in homeroom in my high school, early 
morning, doing the announcements on the homeroom, they 
announced on the PA, anybody interested in winning a Navy 
scholarship, go see your guidance counselor, and I did. And my 
dad had been a Chief Petty Officer in World War II, spent a lot 
of time in the Reserves in the Navy. So I went and I learned 
about Navy ROTC and the fact that I could, if I won a 
scholarship, get an education, would have a chance to get a 
commission and go on and serve our country. And I wanted to do 
that for, oh, about 23 years.
    But I really needed some help to be able to afford to go to 
college and the Navy was there to extend that help. Really, 
taxpayers through the Navy were there. And I went to Ohio 
State, got a good education, and have been fortunate enough to 
get to go to graduate school through the G.I. Bill.
    But for me, the military was a way to sort of improve my 
standing, improve my ability to contribute to the society and 
to play the kind of roles that I have played. I really want to 
make sure that a whole new generation of young men and women 
receive a similar kind of opportunity and that it is not a 
hollow opportunity, but it is an opportunity that really leads 
them somewhere where they want to go. Whether it is to be 
better sailors, airmen, marines, whatever, we want to make sure 
that they have the chance to do that. If it means finishing up 
their service duty and going out and starting a business or 
working for somebody else, working for a nonprofit or becoming 
a teacher, we want to make sure that they have the opportunity 
to do that.
    Two big challenges that we face--I know I am probably 
speaking to the choir here--one is the huge deficits, spending 
way more money than we can afford. And the second, we compete 
in a world where competition is a lot stronger than it was when 
I was a senior in high school listening to those announcements 
all those years ago in homeroom. So this needs our best effort.
    I mentioned earlier my sort of four core values. Figure out 
the right thing to do and just do it. Treat other people the 
way I want to be treated. Focus on excellence in everything we 
do. If it is not perfect, I like to say, make it better. And 
finally, just do not give up.
    We can do better here. I think we are trying to do better 
here, and with the help of GAO and the good efforts of a bunch 
of people in DOD and from SOC and from a bunch of the colleges, 
whether they are for-profit, nonprofit, whether they are 
public, a bunch of them are showing us the way to get a better 
product and doing right by our young men and women, or not-so-
young men and women. We will learn from them. But the folks 
that are not doing the best that they can, we need them to 
measure up. This is not a threat. We want to help the ones that 
are not doing the kind of job that they should be proud of or 
could be proud of, we want to make sure they start doing that.
    One of the things I am pretty good at is being persistent, 
and when I sense that there are wrongs being committed out 
there, I would like to right wrongs. I think most of us feel 
that way. There is a lot of good that is being done through 
this program, but there are some wrongs that are being 
committed with taxpayer money, and to the best of our ability, 
I just want to eliminate that and I want to eliminate it as 
quickly as we can. Our servicemen and women deserve that. And 
when I look them in the eye at Dover or over in Afghanistan or 
Iraq or wherever they might be, I want them to know from my 
heart, we are doing our best for them, and I know you feel that 
way, too.
    With that having been said, this is going to be a dialogue. 
It is going to be a dialogue that continues. I would encourage 
certain GAO and the Department of Education and the Department 
of Defense, SOC, and others to be part of that dialogue, and I 
would encourage the institutions themselves, whether they are 
for-profit, nonprofits, publics, to be a part of that dialogue. 
At the end of the day, when we have a chance to see our 
sailors, soldiers, airmen, marines going out there and doing a 
great job and going on and being successful with their lives, 
we can feel really, really proud of them and good about what we 
have helped them to accomplish.
    With that having been said, thank you all very much for 
joining us today and this hearing is adjourned.
    [Whereas, at 4:35 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
